            Office of Inspector General




October 17, 2005

ANTHONY J. VEGLIANTE
EXECUTIVE VICE PRESIDENT AND
 CHIEF, HUMAN RESOURCES OFFICER

DEWITT O. HARRIS
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: White Paper on Postal Service Participation in the Department of Labor’s
         Office of Workers’ Compensation Programs
         (Product Number HM-OT-06-001)

This white paper presents the results of the Postal Service Office of Inspector General’s
(OIG) review of the Postal Service’s Participation in the Department of Labor’s (DOL)
Office of Workers’ Compensation Programs (OWCP) (Project Number
05YG008HM000). We are providing this white paper for informational purposes only
and for use when considering whether the DOL’s OWCP could be replaced with a less
costly program.

Our overall objective was to analyze positive and negative issues concerning the Postal
Service’s participation in the DOL’s OWCP. We focused on whether the OWCP
program currently utilized by the Postal Service could be replaced with a less costly
workers’ compensation program by analyzing issues and benchmarking with private
companies and nonfederal government agencies.

On the positive side, savings would most likely occur if the Postal Service had its own
workers’ compensation program. These savings would be in the areas of Continuation
of Pay (COP) elimination and a 3-day waiting period, reduced OWCP administrative
fees and Postal Service third-party administrators, physician selection, buyout options,
mandatory retirements, compensation limits and dependency status, and accountability
controls.

A negative issue was potential resistance by the Postal Service’s four major employee
unions1 if employee compensation benefits are reduced. In addition, separating the
Postal Service from OWCP would require legislative change.




1
 The four major Postal Service employee unions are the American Postal Workers Union, the National Association of
Letter Carriers, the National Postal Mail Handlers Union, and the National Rural Letter Carriers’ Union.
Although we had no recommendations for management, management provided
comments. Management stated the report was informative, thorough, and a well written
review of a complex program that has evolved significantly since the early 1970s.
Management also clarified issues related to COP, the 3-day waiting period, and
compensation limits. Management’s comments have been incorporated into the report.
Management’s comments, in their entirety, are included in Appendix N of this report.

We appreciate the cooperation and courtesies provided by your staff. If you have
questions or need additional information, please contact Chris Nicoloff, Director, Human
Capital, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachments

cc:   Mary Anne Gibbons
      Ronald E. Henderson
      Steven R. Phelps
Postal Service Participation in the Department of Labor’s               HM-OT-06-001
 Office of Workers’ Compensation Programs


                                       TABLE OF CONTENTS


                                                                                       Page

Abbreviations

Introduction                                                                              1
Objectives, Scope, and Methodology                                                        1
Prior Audit Coverage                                                                      1

Background                                                                                1

Review                                                                                    6
Results

Appendix A.          Objectives, Scope, and Methodology                                  15
Appendix B.          Prior Audit Coverage                                                18
Appendix C.          Average Cost and Numbers of Workers’ Compensation Medical           20
                     and Compensation Cases (Nonfatal and Fatal) for Federal
                     Government Agencies Participating in OWCP for CBY 2004
Appendix D.          Average Cost and Numbers of Workers’ Compensation Medical           22
                     and Compensation Cases (Nonfatal and Fatal) for Federal
                     Government Agencies Participating in OWCP for CBY 2003
Appendix E.          Average Cost and Numbers of Workers’ Compensation Medical           24
                     and Compensation Cases (Nonfatal and Fatal) for Federal
                     Government Agencies Participating in OWCP for CBY 2002
Appendix F.          DOL’s OWCP Administrative Fees for the Postal Service and           26
                     Participating Nonappropriated Federal Agencies for CBYs 2002
                     Through 2004
Appendix G.          Profile of the Postal Service and Benchmarked Organizations         27
Appendix H.          Analysis of Prior Reports Addressing Postal Service
                     Participation in the DOL’s OWCP                                     28
Appendix I.          Annual Compensation for Injured Employees                           31
Appendix J.          Similarities (Highlighted) and Differences Between the Postal       32
                     Service and Other Benchmarked Organizations
Appendix K.          Total Workers’ Compensation Program Costs for the Postal            33
                     Service and Benchmarked Organizations
Appendix L.          Total Numbers of Accidents and Injuries for the Postal Service      35
                     and Benchmarked Organizations
Appendix M.          Management’s Comments                                               36
Postal Service Participation in the Department of Labor’s        HM-OT-06-001
 Office of Workers’ Compensation Programs


                                           Abbreviations
CBY             Chargeback Year
COLA            Cost-of-Living Adjustment
COP             Continuation of Pay
CY              Calendar Year
DOL             Department of Labor
DOT             Department of Transportation
FECA            Federal Employees' Compensation Act
FHG             First Health Group
FY              Fiscal Year
GAO             Government Accountability Office
LLP             Limited Liability Partnership
NIST            National Institute of Standards and Technology
NTIS            National Technical Information Service
OIG             Office of Inspector General
OWCP            Office of Workers' Compensation Programs
USPS            United States Postal Service
TPA             Third-Party Administrator
TVA             Tennessee Valley Authority
U.S.            United States
Postal Service Participation in the Department of Labor’s                                 HM-OT-06-001
 Office of Workers’ Compensation Programs


                                            INTRODUCTION
The Office of Inspector General (OIG) analyzed major issues concerning the Postal
Service’s participation in the Department of Labor’s (DOL) Office of Workers’
Compensation Programs (OWCP). This self-initiated review focused on whether the
OWCP program currently utilized by the Postal Service could be replaced with a less
costly workers’ compensation program by analyzing issues and benchmarking with
private companies and nonfederal government agencies.

                    OBJECTIVES, SCOPE, AND METHODOLOGY
We discuss our objectives, scope, and methodology in Appendix A.

                                   PRIOR AUDIT COVERAGE
We list prior audit coverage in Appendix B.

                                            BACKGROUND
Federal Employees’ Compensation Act

The Federal Employees’ Compensation Act (FECA), enacted in 1916, provides
disability benefits to civilian federal employees who are injured in the course of federal
employment. OWCP administers FECA through 12 district offices across the United
States (U.S.). The law requires the Postal Service to participate in the OWCP and
ensure coverage for injured employees.2 Changing the Postal Service's participation in
the OWCP would require an amendment to this law by Congress.

OWCP

OWCP adjudicates claims and pays compensation, medical, and death benefits for
injured federal workers, including Postal Service employees. FECA covers all medical
care that an employee needs to recover from the effects of a work-related injury,
including hospitalization, nursing services, prosthetic appliances, and the services of an
attendant when required for severe injuries.3 Payments for medical services are subject
to a schedule of maximum allowable amounts.4 These benefits are paid from the
OWCP Employees’ Compensation Fund.




2
  U. S. Code 39, sec. 1005(c).
3
  Source: 2004 Federal Employee Almanac, Medical Care Benefits, page 189.
4
  Medical costs are limited to $1,500 per month. Source: 2004 Federal Personnel Guide, Medical Benefits, page 157.


                                                        1
Postal Service Participation in the Department of Labor’s                                   HM-OT-06-001
 Office of Workers’ Compensation Programs



Postal Service Workers’ Compensation Costs

The Postal Service was the largest participant in OWCP in chargeback year
(CBY)5 2004, representing about 30 percent of the total federal workforce that
participated. It was also the largest payee to OWCP with approximately $830.1 million
in payments for the same year, or about 36 percent of the $2.3 billion in total federal
workers’ compensation payments. In addition to the $830.1 million, the Postal Service
paid chargeback billing costs for the old Post Office Department6 of $22.9 million and an
administrative fee7 of $44.5 million. This brings the total CBY 2004 costs to $897.4
million, as shown in Table 1.
                    Table 1. Postal Service’s Total Workers’ Compensation, Medical
                             Costs, and Administrative Fees for CBY 2004

                                                                               CBY 2004
                                  Type of Cost                                 (millions)
                   Postal Service’s Workers’ Compensation
                   and Medical Costs                                                     $830.1

                   Post Office Department Workers’
                   Compensation and Medical Costs                                           22.9

                   Administrative Fee                                                       44.5

                     Total                                                               $897.5
                  Source: OWCP Chargeback Billing Summary


As shown in Table 2, for CBYs 2002 through 2004, the Postal Service accounted for
about 36 percent of the total workers’ compensation costs for each year. For the same
period, the four agencies with the next highest workers’ compensation costs were the
Departments of the Navy, Army, Air Force, and Veterans’ Affairs.




5
 OWCP’s Chargeback System is the mechanism by which they bill the costs of compensation for work-related injuries
and death annually to employing agencies. The chargeback billing period is from July 1 in one year to June 30 the
following year.
6
 The Post Office Department incurred compensation claims before the Postal Reorganization in 1971. The U.S.
government remained responsible for paying all workers' compensation claims the Post Office Department incurred
before July 1, 1971, until the Balance Budget Act of 1997 was passed. Then the remaining liability for these claims
was transferred to the Postal Service.
7
 Administrative fees represent the amount OWCP assesses for managing workers’ compensation claims. The
amount paid is approximately 5 percent of the Postal Service’s medical and compensation costs. The OWCP does
not assess administrative fees for managing FECA claims classified as Post Office Department claims. See footnote
6 for a description of Post Office Department cases. The Postal Service’s administrative fees increased 35.3 percent,
from $32.9 million in CBY 2000 to $44.5 million in CBY 2004.


                                                         2
Postal Service Participation in the Department of Labor’s                                 HM-OT-06-001
 Office of Workers’ Compensation Programs

                Table 2. Postal Service’s Workers’ Compensation Costs (the highest)
                         Compared to Federal Agencies with the Next Highest Costs
                         for CBYs 2002 through 2004

                     Postal Service and All Other          Total Workers’ Compensation Costs
             CBY          Federal Agencies                    Total          Percent of Total

                     Postal Service                        $852,945,2688             36
                     Department of Navy                      245,145,141             10
                     Department of Army                      177,250,299              8
             2004    Department of Veterans’
                     Affairs                                155,391,237               7
                     Department of Air Force                129,228,862               6
                     All Other Agencies                     779,821,626              33
                       Total                           $2,339,782,433               100

                     Postal Service                        $846,876,059              36
                     Department of Navy                     245,461,122              10
                     Department of Army                     181,298,121               8
             2003    Department of Veterans’
                     Affairs                              157,315,278                 7
                     Department of Air Force              135,508,846                 6
                     All Other Agencies                   756,828,564                33
                       Total                           $2,323,287,990               100

                   Postal Service                 $785,198,990              35
                   Department of Navy              248,250,399              11
                   Department of Army              174,832,090               8
            2002 Department of Veterans’
                   Affairs                         151,611,682               7
                   Department of Air Force         132,538,462               6
                   All Other Agencies              727,016,264              33
                     Total                      $2,219,447,887             100
           Source: OWCP Chargeback Billing Summaries
           Note: For CBY 2003, rounded percents totaled 101. Therefore, we rounded down the
           Department of Navy’s percent (10.57 percent to 10 percent) so that the total percent
           would equal 100.

Table 3 shows the average cost per compensation and medical case for the Postal
Service and the ranges from low to high for other federal agencies for CBYs 2002
through 2004. The Postal Service did not have the highest average cost per case when
compared to other federal agencies for CBYs 2002 through 2004. For example, in
CBY 2004, the average medical costs per case ranged from $1,567 for the Corporation
for National and Community Service to $5,446 for the Executive Office of the President.
For the same year, the Postal Service averaged $2,485 per case.


8
 The amounts for the Postal Service in CBYs 2002 through 2004 include workers’ compensation and medical costs
for the Post Office Department. The amounts do not include the administrative fees.


                                                       3
 Postal Service Participation in the Department of Labor’s                                 HM-OT-06-001
  Office of Workers’ Compensation Programs



              Table 3. Average Costs per Case for the Postal Service and Other Federal
                       Agencies’ Workers’ Compensation Cases (Ranging from Low to High)
                       For CBYs 2002 through 2004

       Postal Service
         and Other                                      Compensation - Average           Compensation - Average
          Federal           Medical - Average              Cost per Case                    Cost per Case
CBY      Agencies            Cost per Case                   (Non-fatal)                        (Fatal)
2004   Postal Service            $2,485                       $14,951                          $22,283

                          Lowest         Highest        Lowest          Highest         Lowest           Highest
                        Corporation
                                                       Department
                        for National    Executive                      Executive       Executive      Environmental
                                                           of
       Other Agencies       and        Office of the                  Office of the   Office of the     Protection
                                                       Homeland
                        Community       President                      President       President         Agency
                                                        Security
                          Service
                           $1,567        $5,446         $15,702         $48,058            0             $52,377
2003   Postal Service             $2,465                          $15,466                         $21,636
                                                                                        Lowest
                          Lowest            Highest     Lowest          Highest                          Highest

                        Government      Executive                                      Executive
                                                         Peace       Department of                    Department of
       Other Agencies     Printing     Office of the                                  Office of the
                                                         Corps       Transportation                    Education
                           Office       President                                      President

                          $1,681            $8,965      $15,029         $41,807            0            $40,084
2002   Postal Service              $2,310                         $14,091                         $21,867

                          Lowest            Highest     Lowest          Highest         Lowest           Highest
                                       Corporation
                        Government     for National    Department
                                                                       Executive       Executive         Federal
                          Printing         and             of
       Other Agencies                                                 Office of the   Office of the     Judiciary
                           Office      Community       Commerce
                                                                       President       President
                                         Service
                          $1,922            $7,012      $14,240         $47,055            0            $42,678
Source: OWCP Chargeback Billing Summaries

 Appendices C, D, and E show the average total workers’ compensation costs and
 numbers of medical and compensation cases for CBYs 2002 through 2004 for all
 agencies whose workers’ compensation programs are administered by OWCP.

 Administrative Fees Paid to OWCP

 The Postal Service is one of 18 non-appropriated agencies that pay OWCP an annual
 administrative fee for managing FECA claims for their employees. (See Appendix F.)




                                                        4
 Postal Service Participation in the Department of Labor’s                                  HM-OT-06-001
  Office of Workers’ Compensation Programs



 Table 4 shows that during CBYs 2002 to 2004, the Postal Service paid over 90 percent
 of the total administrative fees assessed to federal agencies that paid fees.

                      Table 4. Postal Service’s Administrative Fee Compared to Other
                           Nonappropriated Federal Agencies for CBYs 2002 Through 2004

              Postal Service and Other                                                                Postal Service’s
              Nonappropriated Federal                 Compensation        Administrative Fee         Percentage of Total
 CBY                   Agencies                        (in millions)        (in millions)            Administrative Fee
          Postal Service                                      $830.1                   $44.5                         92.1
 2004     Other Nonappropriated Federal
          Agencies                                               71.7                       3.8                        7.9
            Totals                                             $901.8                     $48.3                      100.0
          Postal Service                                      $822.79                     $44.5                       91.7
 2003     Other Nonappropriated Federal
          Agencies                                               74.4                       4.0                        8.3
            Totals                                             $897.1                     $48.5                      100.0
          Postal Service                                       $759.8                     $45.2                       92.2
 2002     Other Nonappropriated Federal
          Agencies                                               76.1                       3.8                        7.8
            Totals                                             $835.9                     $49.0                      100.0
Source: OWCP

 Compared to other federal agencies that pay administrative fees, the Postal Service
 pays an equitable share at a rate of approximately 5 percent of its medical claims and
 compensation costs. This is the same percentage paid by the other agencies. For
 example, the Postal Service paid $44.5 million in administrative fees for CBY 2004, or
 about 5 percent of the $830 million it paid in chargeback costs. Appendix F shows the
 administrative fees paid by the Postal Service and each participating federal agency for
 CBYs 2002 through 2004.

 Strategies and Accomplishments in Postal Service Transformation Plan

 In the April 2002 Transformation Plan, the Postal Service stated it would implement a
 number of strategies to “push business effectiveness and operational efficiency.” One
 of the strategies outlined, performance strategy 10, was to reduce workers’
 compensation costs by working with DOL on new initiatives and regulatory changes.10

 In the November 2004 Transformation Plan Progress Report, the Postal Service charted
 five strategies to reduce workers’ compensation costs and provided its results to date,
 as Table 5 shows.



 9
   This amount does not include the Post Office Department claims because administrative fees are not assessed for
 managing those claims.
 10
    U. S. Postal Service Transformation Plan, Appendix O, Performance-Based Strategies, April 4, 2002.


                                                          5
Postal Service Participation in the Department of Labor’s                                     HM-OT-06-001
 Office of Workers’ Compensation Programs



                     Table 5: Transformation Plan Progress Report 2004: Strategies to
                                  Reduce Workers’ Compensation Costs

                                                                        In Progress/Under
                                 Strategies                                Development           Completed
           Expand Preferred Provider Organization Program
           with First Health Group (FHG) and OWCP                                                     X
           Move all FECA recipients to FECA annuity at age 65                     X
           Encourage OWCP to revise current regulations to
           allow direct contact with treating physician                           X
           Private sector outplacement of injured Postal Service
           employees and creation of new internal positions to
           accommodate injured workers                                                                X
           Interagency work cooperation to attain organizational
           objectives                                                                                 X

The partnership with FHG has been successful, as the Postal Service has realized
about $2.2 million in savings over a 4-year period.11 In addition, from May 2002 through
January 2005, the Postal Service placed a total of 112 employees with new employers
under the OWCP’s Vocational Rehabilitation Program.

President’s Commission on the U.S. Postal Service

In December 2002, the President created the President’s Commission on the U. S.
Postal Service (Commission). A key objective of the Commission was to determine the
flexibility the Postal Service should have to control costs in response to financial,
competitive, and market pressures. The July 2003 Commission report stated that since
the Postal Service has a unique businesslike charter, the agency should be given relief
from provisions of FECA that create costly unintended consequences.

                                               Review Results
We analyzed issues related to the Postal Service having its own workers’ compensation
program separate from the DOL OWCP, and benchmarked with 11 organizations –
five private companies and six nonfederal agencies. Of the five private companies, four
were Fortune 500 companies.12 See Appendix G for profiles of the 11 organizations.

We identified positive and negative issues that may affect savings if the Postal Service
has its own workers’ compensation program. Our analysis suggested that savings and
a positive impact would most likely occur in the areas of:




11
     The FHG reviews medical bills for injury compensation.
12
     The Fortune 500 is a ranking of the top 500 United States corporations as measured by gross revenue.


                                                           6
Postal Service Participation in the Department of Labor’s                                       HM-OT-06-001
 Office of Workers’ Compensation Programs



     •   COP elimination and a 3-day waiting period
     •   Reduced OWCP administrative fees and Postal Service third-party administrators
         (TPAs)
     •   Physician selection
     •   Buyout options
     •   Mandatory retirement
     •   Compensation limits and dependency status
     •   Accountability controls

The negative issues that may affect a compensation program for Postal Service workers
are the potential for resistance by the Postal Service’s four major employee unions13 if
employee compensation benefits are reduced. In addition, separating the Postal
Service from OWCP would require legislative change.

We identified the positive and negative issues through analyses of three selected
reports addressing significant workers’ compensation issues – a Postal Service internal
draft proposal,14 a Deloitte & Touche study,15 and an Ernst & Young Limited Liability
Partnership (LLP) report.16 Appendix H summarizes the reports. We also held
discussions with Postal Service officials, reviewed other reports and testimonies, and
conducted benchmarking studies.

Positive Issues Regarding a Postal Service Workers’ Compensation Program
We identified a number of issues that could positively affect the Postal Service if it had
its own workers’ compensation program. All of the issues identified, however, require
legislative changes to FECA and must be enacted by Congress. These issues are
discussed below.

COP Elimination and 3-day Waiting Period

Under FECA, COP17 is a benefit where an employer continues regular pay for up to
45 calendar days for a federal employee who has sustained a traumatic injury.18 During
this period there is no charge to the employee’s sick or annual leave. If the disability
continues for more than 45 days, workers’ compensation replaces regular pay.
According to the Postal Service’s internal draft proposal to move Postal Service
workers’ compensation coverage to its own program,19 legislative changes to FECA
13
   The four major Postal Service employee unions are the American Postal Workers Union, the National Association of
Letter Carriers, the National Postal Mail Handlers Union, and the National Rural Letter Carriers’ Union.
14
   Proposal to Move Postal Workers’ Compensation Coverage to a Postal Service Workers’ Compensation Act is an
October 2003 Postal Service internal document.
15
   USPS Workers’ Compensation – Options Available to Assist the U. S. Postal Service for Improving Delivery of
Workers’ Compensation Benefits, Reducing Costs, and Strengthening Accountability.
16
   U. S. Postal Service, Analysis of Potential Savings: FECA vs. State Act Coverage of Workers’ Compensation.
17
   COP is deducted immediately from the Postal Service budget because it is a continuation of the employee’s regular
pay.
18
   A traumatic injury is defined as a wound or other condition of the body caused by external force, including stress or
strain. It must be caused by a specific event or incident or series of events or incidents in a single day or work shift.
19
   The proposed new program would be the U. S. Postal Service Workers’ Compensation Act (USPS Act).


                                                           7
Postal Service Participation in the Department of Labor’s                                  HM-OT-06-001
 Office of Workers’ Compensation Programs

would eliminate COP when an employee reports an injury and would institute a 3-day
waiting period before workers’ compensation begins. Under this proposal, an employee
could use sick or annual leave or leave without pay during the 3-day waiting period.
The proposed changes would save the Postal Service substantial funds each year.
Specifically, a Postal Service official stated that imposing a waiting period before
granting an injured worker compensation may encourage the employee to return to
work sooner.

In addition, responses to our benchmarking study showed that two of the six nonfederal
government agencies have a program similar to FECA’s COP program. Specifically,
one agency's program is modeled after FECA's program. The other agency's
employees (full time permanent) are paid the first week of disability which is 100 percent
of the employee's salary. The four remaining agencies require a 3- to 7-day waiting
period before compensation benefits begin.

Reduced OWCP Administrative Fees and Postal Service TPA

As previously stated, the Postal Service is 1 of 18 nonappropriated agencies that pay
OWCP an annual administrative fee for managing FECA claims for their employees.
The rate these agencies (including the Postal Service) pay is about 5 percent of the
agency’s total annual chargeback costs. Postal Service officials agreed with the OIG
that a possible method of reducing administrative fees would be if the OWCP calculated
fees for older cases (which take less time to manage) at a lower rate (or on a sliding
scale).20

The Postal Service’s draft proposal and the Deloitte & Touche study indicate that the
Postal Service could reduce administrative fees by contracting with TPAs instead of
using the OWCP to process and manage injury claims. For example, a Postal Service
official explained that the TPAs generate savings by discounting medical claims. These
discounted claims would be paid to contracted physicians, and the resulting gain
share21 would be divided between the Postal Service and the TPAs.

The Deloitte & Touche study suggested the Postal Service use a TPA in place of the
OWCP to provide better control over claims administration, benefits delivery systems,
and cost containment, potentially reducing administrative costs. Our benchmarking
data showed that two of the six nonfederal government agencies and all five private
companies use TPAs. Further, one private company indicated that its economic
analysis showed savings by using TPAs versus in-house staff, in addition to cost
savings from a technological aspect. Specifically, the TPAs had the software necessary
to process claims.




20
 The OIG plans to review DOL’s calculation of the administrative fees assessed to the Postal Service.
21
 A gain share is a contractual term that describes the percentage of savings divided between a TPA and the
company to which it provides its services. The contract usually predetermines the percentage of split.


                                                        8
Postal Service Participation in the Department of Labor’s                                       HM-OT-06-001
 Office of Workers’ Compensation Programs

Physician Selection

Postal Service employees on OWCP are allowed to select their attending physicians,
which is different than some of our benchmarking organizations allow. Specifically, all
five private companies (guided by statutory regulations) and four of the six nonfederal
government agencies select the physicians for their injured employees. This, as well as
the Postal Service’s internal draft proposal, suggests that employer selection of treating
physicians would enhance injury case management, and therefore potentially reduce
workers’ compensation costs. For example, allowing the Postal Service to choose the
physician and actively manage the case with the physician, including discussions of the
employee’s status, could result in the employee returning more rapidly to productive
work, with or without restrictions.

Buyout Options

OWCP regulations do not allow the Postal Service to offer its injured employees buyout
options.22 According to the Postal Service internal draft proposal, if buyouts were
offered, workers’ compensation claims could be settled. Further, when a mutual
agreement is reached, an injured employee could be asked to resign under a buyout
option, saving additional costs.

All five of the private companies and three of the six nonfederal government agencies
we benchmarked with, offered their injured employees buyouts. Some offers included
the employee’s resignation from the organization. One private company realized an
estimated savings of $9 million over a 3-year period (calendar year [CY] 2001 to 2003)
by offering buyouts to 766 injured employees who accepted the offers.

Mandatory Retirements

Federal employees receiving workers’ compensation and reaching retirement age are
not required to retire, and often stay on the workers’ compensation rolls indefinitely,
receiving a higher pay than might be received from a normal retirement.

The OIG issued two reports23 in 2003 which supported legislative reform that would help
reduce the current number of employees on the periodic rolls.24 The March 2003 report
stated that legislative reform is needed to address concerns that FECA has become a
retirement system for injured workers. The report stated that for CBY 2002, Postal
Service employees age 55 and older made up 49 percent (6,500) of the approximately
13,400 employees on the periodic rolls. Since the Postal Service’s workers’
compensation costs accounted for 35 percent of the total program costs for FY 2002,
22
   A buyout option is when an employee is offered a one-time lump sum payment in place of payments over a period
of time. Postal Service officials stated that a buyout could consist of an amount offered to an injured employee to
settle a workers’ compensation claim, and could also include the employee’s resignation from the agency.
23
   Retirement Eligible Postal Service Employees on the Workers’ Compensation Periodic Rolls (Report Number
HK-MA-03-001, March 21, 2003); and Comparison of Retirement Benefits to Workers’ Compensation Benefits for
Employees on the Periodic Rolls (Report Number HM-AR-04-001, December 12, 2003).
24
   Employees on the periodic rolls have permanent disabilities or injuries that have lasted or are expected to last for
prolonged periods (over 1 year).


                                                           9
Postal Service Participation in the Department of Labor’s              HM-OT-06-001
 Office of Workers’ Compensation Programs

legislative reform to reduce the number of employees on the periodic rolls would reduce
compensation costs and give the Postal Service financial relief.

The OIG’s December 2003 report stated 55 is the age at which most employees are first
eligible for voluntary retirement. However, there is no requirement to remove an
employee who has reached retirement age from the periodic rolls. The report stated the
Postal Service could save $19 million over a 10-year period if it required 255 totally
disabled employees to retire under the applicable retirement system.

The Postal Service’s internal draft proposal also suggests retirement for eligible injured
employees on the workers’ compensation rolls, as did the Ernst & Young LLP report,
which addresses legislative changes and FECA reform when retirement is mandated for
claimants reaching retirement age.

Responses to our benchmarking survey showed that none of the organizations required
injured employees to retire when eligible. Further, two benchmarked organizations
acknowledged that injured employees have an advantage when staying on workers’
compensation. Specifically, one cited the tax-exempt benefit and the other cited the
potentially higher workers’ compensation benefits compared to retirement annuities.

Compensation Limits and Dependency Status

The OWCP provides injured Postal Service employees without dependents 66⅔ percent
of their salary (tax-free) as compensation and allows 75 percent for injured employees
with dependents. The Postal Service’s internal draft proposal recommends that the
maximum rate of compensation be reduced to 66⅔ percent of salary for all injured
employees, which would result in substantial savings to the Postal Service.

Our benchmarking showed that all five of the private companies’ and five of the six
nonfederal government agencies’ wage compensation was limited to, generally between
66⅔ and 70 percent, depending on statutory limits. One organization had the same
limits as the Postal Service.

Accountability Controls

The Postal Service has limited accountability over the claims processing of its workers’
compensation cases. One Postal Service official told us it is difficult to manage cases
when the Postal Service is limited to starting the paperwork, and everything else
associated with the case is managed at and by the OWCP. For example, the official
said that to obtain a copy of the case file, the Postal Service must request it from
OWCP.

The Postal Service’s internal draft proposal and a Postal Service official indicated that
tighter accountability over its workers’ compensation program is needed and could
result in savings. For example, a contracted TPA who participates in a gain share
program with the Postal Service and provides immediate case management would most
likely be motivated to ensure that overpayments are decreased and third party

                                                     10
Postal Service Participation in the Department of Labor’s             HM-OT-06-001
 Office of Workers’ Compensation Programs

recoveries are pursued. The Deloitte & Touche study also suggested that the Postal
Service could model the private sector by obtaining a TPA to replace OWCP for tighter
accountability over claims management, and thus could reduce costs.

Negative Issues Regarding the Postal Service Workers’ Compensation Program

We found two issues that may cause a negative situation if the Postal Service pursues
having its own workers’ compensation program.

Unions’ Reactions

The Postal Service’s workers’ compensation program, under current FECA guidelines,
is one of the most generous compensation programs nationwide. The Postal Service’s
internal draft proposal indicates that if changes to FECA were proposed and the Postal
Service developed its own workers’ compensation program and implemented cost-
saving measures, the unions may resist these changes. For example, if injury costs
were reduced by 20 to 25 percent each year, and disability compensation costs and
days off were reduced, the unions may perceive this as a reduction in employee
benefits and object to proposed changes in FECA legislation and subsequent changes
to Postal Service workers’ compensation program.

Legislative Change

The law mandates that the Postal Service participate in the OWCP. All the sources we
researched acknowledged that legislative change would be the primary challenge in
separating the Postal Service from the OWCP.

In addition, our sources encouraged further study of the quality and cost-effectiveness
of any services the Postal Service receives in comparison to other federal and
nonfederal government entities and the private sector, with emphasis on industry best
practices. We believe this white paper provides a good start for any additional work in
this area.

Additional Data Comparisons with Benchmarking Organizations

In addition to the information we obtained from the 11 benchmarked organizations
discussed in this report, we obtained additional data on workers’ compensation
programs to make comparisons with the Postal Service’s current program. Those
comparisons are discussed below.

    •   The DOL provides annual increases to injured employees’ compensation in the
        form of cost of living adjustments (COLAs), while most benchmarked
        organizations do not. These annual increases are included in the costs billed
        annually to the Postal Service. (See Appendix I.)




                                                     11
Postal Service Participation in the Department of Labor’s                                HM-OT-06-001
 Office of Workers’ Compensation Programs


     •   The Postal Service’s workers’ compensation program is similar in some respects
         to those of the 11 benchmarked organizations. For example, the number of
         benefit weeks generally is not limited for compensation or medical payments. In
         addition, 10 of the organizations do not require injured employees to retire when
         eligible. (See Appendix J.)

     •   The Postal Service’s average workers’ compensation expense was more than
         that of six of the 11 organizations that provided information.25 Specifically, the
         average cost for the 10 organizations ranged from $2,362 to $16,952, with the
         Postal Service averaging $6,453. For some organizations, the average was
         based per case and for some per employee. In addition, the information for
         some organizations was based on FY 2003 and for others on CY 2003. (See
         Appendix K.)

We asked the 11 organizations for data concerning the numbers of accidents and
injuries (by ratio or average) to compare them to the Postal Service. However, the
organizations did not track the data separately per year, and therefore very little
information was provided. Appendix L shows some data for accidents and injuries.

Draft Legislation

As outlined in this white paper, proposed legislative changes to FECA affecting the
areas of COP, administrative fees, physician selection, buyout options, mandatory
retirements, and compensation limits may provide savings to the Postal Service. For
example, current legislation under consideration by the senate (S.662) would change
OWCP regulations by requiring a 3-day waiting period before workers begin to receive
COP, unless the disability exceeds 14 days or becomes permanent. S.662 also
requires injured eligible employees on the rolls of OWCP to convert to a retirement
annuity or have their compensation benefits reduced once they reach retirement age.

The DOL is also considering some changes to FECA, as outlined in a March 14, 2005,
draft bill titled Federal Employees’ Compensation Act Amendments of 2005.
Specifically, the draft bill contains the following:

         COP – Waiting Period

         Section 107, Waiting Period, would amend Sections 8117 and 8118 of the
         FECA to place the 3-day waiting period immediately after an employment
         injury. Prior to the 1974 amendments, the FECA had a 3-day waiting
         period at the beginning of compensation entitlement. However, with the
         advent of COP in the 1974 amendments, the 3-day waiting period was
         placed after the 45-day COP period, so that the waiting period had no
25
  The Postal Service’s and two companies’ average expense was determined by dividing the total expense for 2003
by the number of cases. For the Postal Service and these companies, some employees may have more than one
“case.” The average expense for eight other companies was determined by dividing the total expense by the number
of employees. The remaining company did not provide information regarding its number of employees or cases.



                                                      12
Postal Service Participation in the Department of Labor’s               HM-OT-06-001
 Office of Workers’ Compensation Programs

        effect in the majority of cases. This amendment is intended to reinvigorate
        the effectiveness of the 3-day waiting period. If the temporary disability
        exceeds 14 days or is followed by permanent disability, the first 3 days of
        temporary disability will be converted to COP.

        Retirement

        Section 101, Conversion Entitlement and Reporting Requirements,
        Subsection (d) would amend Section 8105 of the FECA. Benefits for total
        disability recipients (called conversion entitlement) would be reduced to
        50 percent of a claimant’s monthly wages when the injured employee
        reaches retirement age, as defined in Section 216 of the Social Security
        Act, or 1 year after the employee began receiving compensation,
        whichever is later.

        Dependency Status

        Section 103, Augmented Compensation for Dependents, would remove the
        entitlement to augmented compensation for any injury occurring on or after the
        date of enactment, and for any new claim for a period of disability beginning on
        or after the date of enactment. For such injuries and claims, the basic
        compensation rate would be 70 percent of monthly pay, as provided by Sections
        8105(c) and 8106(b), respectively, and there would be no increased entitlement
        to augmented compensation on the basis of dependents.

We are encouraged by the potential changes to legislation and believe that, if enacted,
they will result in savings for the Postal Service and other federal agencies. However,
according to an official with the DOL’s Office of the Solicitor, as of May 26, 2005, the
legislative package had not been transmitted to Capitol Hill because DOL had not found
a sponsor for the legislation.

Conclusion

The Postal Service is required by law to participate in the OWCP, however, aggressive
proposals for legislative change to FECA may be viable and appropriate if they provide
employees with compensation program elements equivalent to other nationwide
companies and government agencies. In addition, changes to FECA guidelines may
provide the Postal Service with substantial savings. For example, a Postal Service
official estimated that an in-house workers’ compensation program could result in
approximately $146 million a year in savings to the Postal Service in some areas. This
official also believes the Postal Service could realize an additional $45 million over a 5-
year period, if they made retirement mandatory and reduced compensation payments to
70 percent.

The information provided in this white paper is for use by Postal Service managers, for
their consideration in determining the options available for the Postal Service to meet its
workers’ compensation needs. Any consideration of the Postal Service moving from the

                                                     13
Postal Service Participation in the Department of Labor’s                                  HM-OT-06-001
 Office of Workers’ Compensation Programs

OWCP to a less costly program of its own should include an in-depth review of all costs
to fully validate the savings that can be realized. The savings validation and a detailed
workers’ compensation plan could then be presented to Congress for its consideration
in making legislative changes.

Although the benchmarking data provided in this report cannot be verified by the OIG,
the data can be used as indicators of private sector and nonfederal government agency
workers’ compensation program costs and best practices.26

Management’s Comments

Management stated the report was informative, thorough, and a well written review of a
complex program that has evolved significantly since the early 1970s. Management
also provided the following clarifications to issues related to COP, the 3-day waiting
period, and compensation limits:

         •    Every state workers’ compensation program has a waiting period of 3 days
              (22 states) or 7 days (22 states) with the remaining states having a 4- or 5-day
              waiting period. The FECA COP does not have a waiting period until the
              employee has completed 45 days in a COP status. This is a significant
              difference between the state programs and FECA.

         •    The only program with 100 percent of salary paid is the FECA COP.
              Forty-seven state programs pay 67 percent or less, or the equivalent of 70 to
              80 percent of post-tax income. The other three states pay 70 percent of income
              – which is still less than the 75 percent FECA allows for employees with
              dependents. The FECA benefit is by far the most generous in the United States
              and gives an incentive to employees to remain on compensation instead of
              working to return to their pre-injury positions.

     •       The potential for 75 percent of a person’s salary tax-free is too generous,
             especially when coupled with the potential COLAs that can occur in a given year.
             Management stated, over the last 33 years, the annual COLA averaged
             4.6 percent, with 4 years that had double digit adjustments and 5 years with more
             than one COLA. Although the COLAs for the last 5 years have been less than
             average, the potential for double-digit increases still exists.

Management’s comments, in their entirety, are included in Appendix N of this report.




26
  The American Productivity and Quality Center Benchmarking Terms state, “There is no single ‘best practice’
because best is not best for everyone. Every organization is different in some way. What is meant by ’best’ are
those practices that have been shown to produce superior results, selected by a systematic process, and judged as
exemplary, good, or successfully demonstrated. Best practices are then adapted to fit a particular organization.”


                                                        14
Postal Service Participation in the Department of Labor’s                                   HM-OT-06-001
 Office of Workers’ Compensation Programs


         APPENDIX A. OBJECTIVES, SCOPE, AND METHODOLOGY
Our overall objective was to analyze positive and negative issues concerning the Postal
Service’s participation in the OWCP, in particular whether or not they can replace the
program with a less costly one. Our sub-objectives were to:

     1. Analyze issues pertaining to the Postal Service having a program separate from
        the DOL’s OWCP.

     2. Research and benchmark with private companies and other nonfederal
        government agencies that have their own workers’ compensation programs and
        determine the related costs.

We analyzed selected issues related to the Postal Service having a program separate
from the OWCP by reviewing three reports that addressed significant workers’
compensation issues that may arise if the Postal Service has its own program. The
three reports we analyzed are:

         •   Proposal to Move Postal Workers’ Compensation Coverage to a Postal
             Service Workers’ Compensation Act, Postal Service internal draft proposal,
             October 2003.

         •   USPS Workers’ Compensation – Options Available to Assist the U. S. Postal
             Service for Improving Delivery of Workers’ Compensation Benefits, Reducing
             Costs, and Strengthening Accountability, Deloitte & Touche, June 2003.27

         •   U. S. Postal Service, Analysis of Potential Savings: FECA vs. State Act
             Coverage of Workers’ Compensation, Ernst & Young LLP, November 1995.28

Appendix H gives summaries of the reports. We also reviewed other reports and
testimony related to our review subject and held discussions with Postal Service
officials. Appendix B lists the other reports and testimony.

During the audit planning stage, we determined that 10 to 15 organizations (both private
and state) would be selected for benchmarking, knowing that some would decline to
participate. The rationale we used to choose a judgmental sample of organizations we
benchmarked with is as follows.

We researched 29 private companies and nonfederal government agencies29 and
identified them as our universe. We then contacted the companies and requested their
assistance with our benchmarking project. In response, 11 of the 29 organizations
(5 private and 6 nonfederal) with workers’ compensation programs agreed to participate

27
   Deloitte & Touche conducted this study at the request of the President’s Commission on the United States Postal
Service.
28
   This study was conducted by Ernst & Young LLP and contracted for by the Postal Service.
29
   The 29 organizations consisted of 19 private companies and 10 nonfederal government agencies.


                                                         15
Postal Service Participation in the Department of Labor’s                                       HM-OT-06-001
 Office of Workers’ Compensation Programs

and return completed questionnaires to us. In order to make the comparisons, the
Postal Service agreed to complete one of our benchmarking questionnaires.

Data specific to the 11 organizations are shown in a random, generically labeled
manner (Company A, Company B, etc.) so as not to disclose any proprietary
information. (See Appendices I, K, and L.)

We reduced our initial universe of 29 organizations to benchmark with because only
11 organizations agreed to participate.

To conduct our benchmarking, we worked with the OIG statistician and used a
judgmental sample to benchmark with external organizations. We identified the
organizations through team brainstorming efforts and input from Postal Service officials.
Initially, we referred to the U.S. Chamber of Commerce's 2004 booklet titled Analysis of
Workers' Compensation Laws to research state information. To make a selection, we
reviewed private companies’ and states' information regarding workers' compensation
programs, if available (including percentages of compensation entitlements). We
considered the following information:

     •   Industry type.

     •   Size of organization.

     •   Type of workers’ compensation program (if mentioned on Web sites and in other
         research materials).

     •   Costs of administering the program.

     •   Location of the organization’s headquarters, point of contact, and Web site
         address.

We selected large private companies and both large and small nonfederal governmental
organizations. We selected companies and states from different sections of the
country. Based on this information, we selected five private companies and identified
six30 nonfederal governmental agencies. We judgmentally selected the latter six based
on size and the type of workers’ compensation programs currently in place.

The benchmarking questionnaire we developed covered topics including size of the
workers’ compensation program, costs, and administration issues. We discussed our
questionnaire with Postal Service officials before administering it to the organizations
and incorporated their comments, as appropriate. Through this benchmarking effort, we

30
 Five of the nonfederal governmental agencies agreed to participate in our benchmarking efforts. During our
entrance conference, Postal Service officials asked the audit team to add four state agencies to the list for potential
benchmarking efforts; however, only one of the four states participated.




                                                           16
Postal Service Participation in the Department of Labor’s              HM-OT-06-001
 Office of Workers’ Compensation Programs

identified external workers’ compensation programs for comparison to the Postal
Service’s OWCP program. Our benchmarking initiatives were intended to determine
how organizations were managing workers’ compensation programs, and to determine
whether the Postal Service could implement similar programs or program elements. We
compiled the data obtained from the benchmarked organizations and found numerous
similarities between the responses received from the Postal Service and the
11 organizations. (See Appendix J.)

We also reviewed a report published by the American Productivity Quality Center on
benchmarking to ensure that we were following current business practices in our
approach to benchmarking.

This review was conducted from November 2004 through October 2005. We discussed
our conclusions and observations with management officials and included their
comments where appropriate.

Data Reliability Testing

We relied on data from the benchmarking questionnaires, and we concluded that the
data were sufficiently reliable to be used in meeting the objectives of this white paper.
The information is based on data received from our benchmarking clients, and therefore
cannot be verified by the OIG. Specifically, the American Productivity and Quality
Center Benchmarking Terms state:

      There is no single ‘best practice’ because best is not best for everyone. Every
      organization is different in some way. What is meant by ‘best’ are those practices
      that have been shown to produce superior results, selected by a systematic
      process, and judged as exemplary, good, or successfully demonstrated. Best
      practices are then adapted to fit a particular organization.




                                                     17
Postal Service Participation in the Department of Labor’s                 HM-OT-06-001
 Office of Workers’ Compensation Programs


                      APPENDIX B. PRIOR AUDIT COVERAGE

Reports

Verification of the Anticipated and Realized Medical Cost Savings Resulting From the
Postal Service’s Contracts With First Health Group Corporation (Report Number
HM-AR-05-005, May 9, 2005). The report stated the Postal Service was successful and
realized $2.2 million in savings over a 4-year period. Although this was not the
$30 million annual savings the Postal Service anticipated, it is working with the DOL and
FHG to improve the savings. The report also stated the OIG determined that four of the
five recommendations in the previous OIG report were implemented and, although
recommendation 2 was not fully implemented, there was no effect on the current
contract. Further, the report stated the current FHG contract needed no modifications.

Fee Schedule Impact of Office of Workers’ Compensation Programs Medical Fee
Schedule on Postal Service Medical Costs (Report Number HM-AR-05-002, March 29,
2005). The report concluded that overall, the medical fee schedule for physicians’
professional services had a positive impact on the Postal Service’s medical costs.
Specifically, for those charges that had a maximum allowable amount established,
OWCP paid medical providers about $939 million less than the maximum allowable
amounts for CBYs 1997 to 2003. In addition, OWCP paid medical providers about
$528 million less than the amount providers billed for CBYs 1997 to 2003. Further,
although some medical charges did not have maximum allowable amounts established,
OWCP independently reviewed the charges, resulting in payments made at or below
what the providers billed.

Comparison of Retirement Benefits to Workers’ Compensation Benefits for Employees
on the Periodic Rolls (Report Number HM-AR-04-001, December 12, 2003). This report
stated 55 as the age at which most employees become eligible for voluntary retirement.
However, there is no requirement to remove an employee who has reached retirement
age from the periodic rolls. The audit found the Postal Service could save $19 million
over a 10-year period if it required 255 totally disabled employees to retire under their
applicable retirement system.

Retirement-Eligible Postal Service Employees on the Workers’ Compensation Periodic
Rolls (Report Number HK-MA-03-001, March 21, 2003). This report disclosed Postal
Service employees age 55 and older make up 49 percent (6,500) of the approximately
13,400 employees on the periodic rolls. Further, 70 percent (9,345) of the employees
on the periodic rolls are totally disabled with little or no future reemployment potential, or
reemployment has not been determined. Reform of the FECA is needed to address
concerns that the act has become a retirement system for some workers’ compensation
beneficiaries. These reforms, if implemented, would decrease the number of
employees on the periodic rolls and would reduce compensation costs.

Postal Service’s Increased Workers’ Compensation Costs (Report Number
OIG/HK-OT-02-001, August 29, 2002). This white paper summarized the reasons why


                                                     18
Postal Service Participation in the Department of Labor’s             HM-OT-06-001
 Office of Workers’ Compensation Programs

the Postal Service’s workers’ compensation costs have increased. The report stated
that FECA required the Postal Service to be part of the DOL’s OWCP.

Workers' Compensation: Selected Comparisons of Federal and State Laws (Report
Number GAO31/GGD-96-76, April 1996). The report presented factual comparisons of
benefits and other provisions of federal and state workers’ compensation laws.

FECA: Issues Associated With Changing Benefits for Older Beneficiaries (Report
Number GAO/GGD-96-138BR, August 1996). The report provided a profile of
beneficiaries on the long-term FECA rolls, with information on their ages, time on the
rolls, and amounts paid; the pros and cons of changing FECA benefits for older
beneficiaries; and questions and issues the Congress might consider if crafting benefit
changes.

Testimonies

Recent GAO Reports on FECA, September 1997, Testimony (GAO/T-GGD-97-187).
The testimony summarized some reports GAO completed regarding FECA. The reports
addressed the recovery of COP benefits in cases where third parties were liable for
injuries; selected comparisons of FECA provisions with provisions of other federal and
state workers’ compensation laws; and issues associated with changing benefits for
older FECA beneficiaries.

Workers’ Compensation Claims and the Federal Employees’ Compensation Act,
April 2003, Testimony. The testimony provided by William P. Tayman, Jr., Postal
Service, Manager, Corporate Financial Planning, to The President’s Commission on the
U. S. Postal Service gave an overview of the magnitude of workers’ compensation costs
to the Postal Service and provided comments on legislative reform opportunities.




31
     Government Accountability Office.


                                                     19
Postal Service Participation in the Department of Labor’s                                                                                           HM-OT-06-001
 Office of Workers’ Compensation Programs


              APPENDIX C. AVERAGE COST AND NUMBERS OF WORKERS’ COMPENSATION MEDICAL AND COMPENSATION
             CASES (NONFATAL AND FATAL) FOR FEDERAL GOVERNMENT AGENCIES PARTICIPATING IN OWCP FOR CBY 2004

                                          Medical Cases                Compensation Cases (Nonfatal)             Compensation Cases (Fatal)
                                                          Average
                                                          Cost per                             Average Cost                          Average Cost                    Percentage of
             Agency             Cases      Payments        Case      Cases     Payments          per Case     Cases    Payments        per Case     Total Costs       Total Paid

 Postal Service                 124,648    $309,766,695     $2,485   35,274   $527,380,053         $14,951      709    $15,798,519       $22,283     $852,945,268             36.45
 Corporation for National and
 Community Service                  49           76,767      1,567       41        694,751          16,945        1        38,741         38,741           810,259             0.03

 Department of Agriculture        6,855      19,342,359      2,822    2,448     43,113,976          17,612      280      6,788,506       24,2445        69,244,840             2.96

 Department of Commerce           1,088       3,309,221      3,042      552      9,381,347          16,995       49      1,225,050        25,001        13,915,618             0.59

 Department of Defense            4,876      13,387,931      2,746    2,467     47,552,379          19,275      101      2,875,355        28,469        63,815,665             2.73

 Department of Education            83         158,054       1,904       39      1,086,585          27,861        4       160,821         40,205         1,405,459             0.06

 Department of Energy              603        1,600,611      2,654      236      6,464,994          27,394       29       892,065         30,761         8,957,670             0.38
 Department of Health and
 Human Services                   1,464       3,938,188      2,690      701     17,528,165          25,005       31      1,073,584        34,632        22,539,934             0.96
 Department of Homeland
 Security                        25,146      49,689,452      1,976    4,303     67,565,493          15,702      123      3,833,907        31,170      121,088,852              5.18

 Department of Justice            7,564      19,202,602      2,539    1,974     50,212,427          25,437      134      4,595,940        34,298        74,010,969             3.16

 Department of Labor              1,249       4,540,584      3,635      570     12,920,207          22,667       64      1,881,720        29,402        19,342,511             0.83

 Department of State               242        1,204,657      4,978       95      2,704,482          28,468      109      2,878,026        26,404         6,787,164             0.29

 Department of Transportation     2,974       8,182,246      2,751    1,783     75,494,829          42,341      236      8,981,620        38,058        92,658,695             3.96

 Department of Air Force          9,531      28,674,853      3,009    4,431     93,064,699          21,003      273      7,489,310        27,433      129,228,862              5.52

 Department of Army              13,581      39,227,493      2,888    6,213    126,763,381          20,403      451     11,259,424        24,965      177,250,299              7.58

 Department of the Interior       7,056      16,374,805      2,321    1,877     35,737,914          19,040      198      4,972,723        25,115        57,085,441             2.44

 Department of Navy              16,264      49,646,189      3,053    8,560    176,308,382          20,597      850     19,190,570        22,577      245,145,141             10.48

 Department of the Treasury       3,850      11,235,346      2,919    1,670     36,630,863          21,935       79      2,919,552        36,956        50,785,761             2.17
 Environmental Protection
 Agency                            258         700,925       2,717       85      2,694,802          31,704        7       366,642         52,377         3,762,369             0.16




                                                                                          20
Postal Service Participation in the Department of Labor’s                                                                                                HM-OT-06-001
 Office of Workers’ Compensation Programs


                     APPENDIX C. AVERAGE COST AND NUMBERS OF WORKERS’ COMPENSATION MEDICAL AND
                      COMPENSATION CASES (NONFATAL AND FATAL) FOR FEDERAL GOVERNMENT AGENCIES
                                     PARTICIPATING IN OWCP FOR CBY 2004 (CONTINUED)

                                            Medical Cases                  Compensation Cases (Nonfatal)            Compensation Cases (Fatal)
                                                            Average                                 Average                               Average
                                                            Cost per                                Cost per                              Cost per                       Percentage of
           Agency                 Cases       Payments       Case      Cases      Payments           Case       Cases     Payments          Case        Total Costs       Total Paid
 Executive Office of the
 President                             16          87,131      5,446        6             288,346      48,058        0                 0.00      0.00          375,477             0.02

 Federal Judiciary                    626       1,446,676      2,311      169           3,974,452      23,517        7             274,940     39,277        5,696,069             0.24
 General Services
 Administration                       673       2,304,625      3,424      500          12,140,382      24,281       31             781,407     25,207       15,226,414             0.65

 Government Printing Office           364         763,039      2,096      202           5,411,775      26,791        2              67,162     33,581        6,241,975             0.27
 Department of Housing and
 Urban Development                    301       1,055,441      3,506      177           5,319,030      30,051       43            1,323,306    30,775        7,697,778             0.33
 National Aeronautics and
 Space Administration                 295       1,028,787      3,487      150           4,909,289      32,729       33            1,264,083    38,306        7,202,159             0.31

 Other Establishments               2,055       5,002,402      2,434      961          23,879,149      24,848      144            5,165,469    35,871       34,047,020             1.46

 Peace Corps                        1,374       4,930,734      3,589      313           5,301,497      16,938       25             468,459     18,738       10,700,690             0.46

 Smithsonian Institution              332       1,237,666      3,728      160           3,383,106      21,144        4             114,198     28,550        4,734,970             0.20
 Social Security
 Administration                     1,888       5,029,353      2,664      824          17,874,236      21,692       21             645,958     30,760       23,549,547             1.01

 Tennessee Valley Authority         2,167       6,000,081      2,769     2,248         49,301,915      21,931      122            2,836,325    23,249       58,138,320             2.48
 Department of Veterans’
 Affairs                           13,315      40,717,044      3,058     6,475        110,399,084      17,050      135            4,275,109    31,667     155,391,237              6.64

                            32
  TOTAL FOR CBY 2004              250,787    $649,861,957     $2,591    85,504     $1,575,481,990     $18,425     4,295      $114,438,491     $26,644   $2,339,782,433           100.00
Source: Data obtained from OWCP Chargeback Billing Summary
        OIG staff calculated average cost per case and percentage of total paid




                32
                     Numbers may vary slightly when compared to the Chargeback Report due to dropping of cents and rounding up.

                                                                                              21
Postal Service Participation in the Department of Labor’s                                                                                          HM-OT-06-001
 Office of Workers’ Compensation Programs


          APPENDIX D. AVERAGE COST AND NUMBERS OF WORKERS’ COMPENSATION MEDICAL AND COMPENSATION CASES
              (NONFATAL AND FATAL) FOR FEDERAL GOVERNMENT AGENCIES PARTICIPATING IN OWCP FOR CBY 2003

                                          Medical Cases                  Compensation Cases (Nonfatal)          Compensation Cases (Fatal)
                                                          Average                              Average                               Average
                                                          Cost per                             Cost per                              Cost per                      Percentage of
             Agency             Cases     Payments         Case        Cases   Payments          Case       Cases    Payments          Case       Total Costs       Total Paid

 Postal Service                 132,470   $326,554,873        $2,465   32,624   $504,548,295      $15,466     729      $15,772,890     $21,636     $846,876,059             36.45
 Corporation for National and
 Community Service                  44        303,323          6,894      38         807,574       21,252       1          37,640       37,640         1,148,536             0.05

 Department of Agriculture        7,562     21,487,224         2,841    2,608     43,836,141       16,808     288        6,988,588      24,266        72,311,953             3.11

 Department of Commerce           1,341      4,957,664         3,697     565       9,763,505       17,281      47        1,082,213      23,026        15,803,382             0.68

 Department of Defense            5,405     16,189,083         2,995    2,502     46,347,259       18,524     102        2,892,559      28,358        65,428,902             2.82

 Department of Education            91        246,814          2,712      40       1,050,573       26,264       4         160,336       40,084         1,457,723             0.06

 Department of Energy              661       1,471,558         2,226     243       6,456,095       26,568      29         867,752       29,922         8,795,405             0.38
 Department of Health and
 Human Services                   1,587      4,221,383         2,660     724      17,358,050       23,975      31        1,115,807      35,994        22,695,240             0.98
 Department of Homeland
 Security                        14,660     30,525,690         2,082    2,376     49,383,020       20,784     118        4,066,771      34,464        83,975,481             3.61

 Department of Justice            7,736     19,322,418         2,498    1,762     42,979,885       24,393     112        3,829,046      34,188        66,131,349             2.85

 Department of Labor              1,401      6,686,008         4,772     642      13,958,045       21,742      64        1,885,512      29,461        22,529,565             0.97

 Department of State               263       1,622,453         6,169      81       2,761,559       34,093      98        2,807,320      28,646         7,191,331             0.31

 Department of Transportation     3,277     10,380,647         3,168    1,813     75,795,754       41,807     238        8,505,559      35,738        94,681,960             4.08

 Department of Air Force         10,456     34,263,007         3,277    4,623     93,697,697       20,268     276        7,548,142      27,348       135,508,846             5.83

 Department of Army              14,957     45,065,330         3,013    6,413    124,934,417       19,481     463       11,298,373      24,403       181,298,121             7.80

 Department of the Interior       7,877     17,431,972         2,213    1,854     34,359,215       18,532     202        4,902,712      24,271        56,693,898             2.44

 Department of Navy              17,435     53,024,362         3,041    8,664    172,736,491       19,937     891       19,700,269      22,110       245,461,122            10.57

 Department of the Treasury       4,799     13,464,424         2,806    1,817     43,092,601       23,716     106        3,604,873      34,008        60,161,897             2.59
 Environmental Protection
 Agency                            265       1,222,674         4,614      82       2,397,701       29,240       6         166,112       27,685         3,786,487             0.16
 Executive Office of the
 President                          16        143,434          8,965       7         286,381       40,912        0            0.00         0.00          429,815             0.02




                                                                                         22
Postal Service Participation in the Department of Labor’s                                                                                                  HM-OT-06-001
 Office of Workers’ Compensation Programs


         APPENDIX D. AVERAGE COST AND NUMBERS OF WORKERS’ COMPENSATION MEDICAL AND COMPENSATION CASES
        (NONFATAL AND FATAL) FOR FEDERAL GOVERNMENT AGENCIES PARTICIPATING IN OWCP FOR CBY 2003 (CONTINUED)

                                           Medical Cases                  Compensation Cases (Nonfatal)               Compensation Cases (Fatal)
                                                           Average
                                                           Cost per                                Average Cost                            Average Cost                    Percentage of
           Agency                Cases       Payments       Case      Cases       Payments           per Case     Cases     Payments         per Case     Total Costs       Total Paid

 Federal Judiciary                   611       1,637,641      2,680      164          3,544,586         21,613        7          250,855        35,836         5,433,082             0.23
 General Services
 Administration                      825       2,362,856      2,864      543        12,583,157          23,173       34          802,769        23,611        15,748,781             0.68

 Government Printing Office          458         769,774      1,681      219          5,511,621         25,167        2           65,354        32,677         6,346,750             0.27
 Department of Housing and
 Urban Development                   311       1,275,801      4,102      176          4,825,879         27,420       47       1,407,709         29,951         7,509,388             0.32
 National Aeronautics and
 Space Administration                320         751,416      2,348      147          4,717,830         32,094       33       1,217,453         36,893         6,686,699             0.29

 Other Establishments              2,223       5,450,629      2,452      959        23,324,579          24,322      147       5,482,547         37,296        34,257,755             1.47

 Peace Corps                       1,241       5,293,605      4,266      314          4,719,185         15,029       24          468,759        19,532        10,481,548             0.45

 Smithsonian Institution             361         942,352      2,610      143          3,059,132         21,393        4          111,162        27,791         4,112,646             0.18
 Social Security
 Administration                    2,075       5,187,165      2,500       761       16,626,276          21,848       22         665,667         30,258        22,479,108             0.97
 Tennessee Valley Authority        2,350       6,832,843      2,908     2,361       50,869,295          21,546      127       2,847,745         22,423        60,549,883             2.61
 Department of Veterans’
 Affairs                          13,884      44,470,733      3,203     6,536      107,774,864          16,489      139       5,069,681         36,473       157,315,278             6.77

                           33
  TOTAL FOR CBY 2003             256,962    $683,559,156     $2,660    81,801    $1,524,106,662        $18,631     4,391   $115,622,175        $26,331    $2,323,287,990           100.00
Source: Data obtained from OWCP Chargeback Billing Summary
        OIG Staff calculated average cost per case and percentage of total paid.




               33
                    Numbers may vary slightly when compared to the Chargeback Report due to dropping of cents and rounding up.

                                                                                              23
Postal Service Participation in the Department of Labor’s                                                                                               HM-OT-06-001
 Office of Workers’ Compensation Programs


          APPENDIX E. AVERAGE COST AND NUMBERS OF WORKERS’ COMPENSATION MEDICAL AND COMPENSATION CASES
              (NONFATAL AND FATAL) FOR FEDERAL GOVERNMENT AGENCIES PARTICIPATING IN OWCP FOR CBY 2002

                                          Medical Cases                Compensation Cases (Nonfatal)               Compensation Cases (Fatal)
                                                          Average
                                                          Cost per                               Average Cost                          Average Cost                     Percentage of
             Agency             Cases      Payments        Case      Cases       Payments          per Case     Cases    Payments        per Case      Total Costs       Total Paid

 Postal Service                 131,856    $304,601,310     $2,310   32,966      $464,525,299        $14,091      735    $16,072,380       $21,867      $785,198,990             35.38
 Corporation for National and
 Community Service                  45         315,527       7,012       39          788,929          20,229        2        44,437         22,219          1,148,892             0.05

 Department of Agriculture        7,417      21,007,226      2,832    2,606        41,530,212         15,936      302      7,025,949        23,265         69,563,387             3.13

 Department of Commerce           1,731       5,103,618      2,948      651         9,270,831         14,241       48      1,265,807        26,371         15,640,257             0.70

 Department of Defense            5,524      15,817,637      2,863    2,688        45,264,791         16,840      101      2,805,502        27,777         63,887,930             2.88

 Department of Education           104         202,492       1,947       42         1,219,214         29,029        5       177,154         35,431          1,598,860             0.07

 Department of Energy              641        1,335,655      2,084      259         6,442,969         24,876       27       861,689         31,914          8,640,313             0.39
 Department of Health and
 Human Services                   1,670       3,822,623      2,289      730        16,953,701         23,224       34      1,266,477        37,249         22,042,801             0.99

 Department of Justice           13,842      33,646,021      2,431    2,835        56,934,395         20,083      161      5,039,329        31,300         95,619,745             4.31

 Department of Labor              1,459       5,200,538      3,564      656        14,355,792         21,884       63      1,698,755        26,964         21,255,085             0.96

 Department of State               197        1,306,606      6,633       84         2,373,018         28,250       98      2,605,412        26,586          6,285,036             0.28

 Department of Transportation     4,009      11,000,526      2,744    2,190        82,017,044         37,451      254      8,698,040        34,244        101,715,610             4.58

 Department of Air Force         11,040      31,930,070      2,892    4,866        93,117,777         19,136      285      7,490,614        26,283        132,538,462             5.97

 Department of Army              15,137      42,258,167      2,792    6,707       121,614,549         18,132      471     10,959,374        23,268        174,832,090             7.88

 Department of the Interior       7,508      15,003,834      1,998    1,843        32,722,284         17,755      208      4,892,119        23,520         52,618,238             2.37

 Department of Navy              17,683      53,631,102      3,033    9,357       174,150,825         18,612      935     20,468,472        21,891        248,250,399            11.19

 Department of the Treasury       8,741      21,429,869      2,452    2,650        61,129,507         23,068      163      5,513,850        33,827         88,073,226             3.97
 Environmental Protection
 Agency                            249         764,810       3,072       85         2,335,724         27,479        7       163,437         23,348          3,263,971             0.15
 Executive Office of the
 President                          15           80,428      5,362           6       282,329          47,055        0           0.00            0.00          362,757             0.02




                                                                                            24
Postal Service Participation in the Department of Labor’s                                                                                                   HM-OT-06-001
 Office of Workers’ Compensation Programs


  APPENDIX E. AVERAGE COST AND NUMBERS OF WORKERS’ COMPENSATION MEDICAL AND COMPENSATION
  CASES (NONFATAL AND FATAL) FOR FEDERAL GOVERNMENT AGENCIES PARTICIPATING IN OWCP FOR CBY
                                      2002 (CONTINUED)

                                            Medical Cases                  Compensation Cases (Nonfatal)               Compensation Cases (Fatal)
                                                            Average
                                                            Cost per                                Average Cost                            Average Cost                    Percentage of
           Agency                 Cases       Payments       Case      Cases       Payments           per Case     Cases     Payments         per Case     Total Costs       Total Paid
 Federal Emergency
 Management Agency                    298         935,789      3,140       76          1,667,124         21,936        3           89,336        29,779         2,692,249             0.12

 Federal Judiciary                    549       1,319,802      2,404      156          3,276,644         21,004        7          298,743        42,678         4,895,189             0.22
 General Services
 Administration                       847       2,469,237      2,915      568        12,573,044          22,136       36          826,258        22,952        15,868,540             0.71

 Government Printing Office           420         807,380      1,922      219          5,278,766         24,104        2           64,111        32,056         6,150,256             0.28
 Department of Housing and
 Urban Development                    339       1,343,371      3,963      184          5,000,272         27,175       47       1,410,679         30,014         7,754,323             0.35
 National Aeronautics and
 Space Administration                 293         771,056      2,632      154          4,703,734         30,544       32       1,186,722         37,085         6,661,511             0.30

 Other Establishments               2,174       5,548,289      2,552      999        22,436,321          22,459      149       5,245,999         35,208        33,230,609             1.50

 Peace Corps                        1,152       5,547,950      4,816      343          4,914,793         14,329       25          460,488        18,420        10,923,230             0.49

 Smithsonian Institution              319         682,267      2,139      142          2,806,939         19,767        4          109,021        27,255         3,598,228             0.16
 Social Security
 Administration                     1,984       5,063,087      2,552      789        15,596,853          19,768       22          646,794        29,400        21,306,733             0.96

 Tennessee Valley Authority         2,425       6,394,844      2,637     2,491       52,739,763          21,172      130       3,084,683         23,728        62,219,290             2.80
 Department of Veterans’
 Affairs                           13,846      41,224,404      2,977     6,886      106,462,045          15,461      134       3,925,233         29,293       151,611,682             6.83

                            34
  TOTAL FOR CBY 2002              253,514    $640,565,535     $2,526    84,267    $1,464,485,488        $17,379     4490    $114,396,864        $25,478    $2,219,447,889          100.00
Source: Data obtained from OWCP Chargeback Billing Summary
        OIG staff calculated average cost per case and percentage of total paid.




                34
                     Numbers may vary slightly when compared to the Chargeback Report due to dropping of cents and rounding up.

                                                                                               25
     Postal Service Participation in the Department of Labor’s                                                   HM-OT-06-001
      Office of Workers’ Compensation Programs

         APPENDIX F. DOL’S OWCP ADMINISTRATIVE FEES FOR THE POSTAL
        SERVICE AND PARTICIPATING NONAPPROPRIATED FEDERAL AGENCIES
                                     FOR
                           CBYS 2002 THROUGH 2004
                                                 CBY 2002                             CBY 2003                          CBY 2004
                                          Medical and                          Medical and                      Medical and
                                            Wage                                 Wage                             Wage
                                         Compensation   Administrative        Compensation    Administrative   Compensation    Administrative
                                                               35
              Agency                       Amount          Fee                  Amount            Fee            Amount            Fee
 Postal Service                          $759,784,476    $45,271,616           $822,697,801     $44,507,951    $830,088,798     $44,492,760
 Agriculture – Risk Management Agency       No Data36        No Data                228,026          12,336         223,324          11,970
 Agriculture – Federal Crop Insurance
 Program                                      203,902         10,195                No Data         No Data          No Data        No Data
 Board of Governors – Federal Reserve         305,640         15,282                440,115          23,810          No Data        No Data
 Commerce – Bureau of Census                2,506,234        125,312              2,220,791         120,145        1,782,896         95,563
                  37
 Commerce – NIST                              308,215         15,411                332,866          18,008          390,639         20,938
                  38
 Commerce – NTIS                               49,057          2,453                 45,551           2,464           44,597          2,390
 Department of Transportation Saint
 Lawrence Seaway                              148,630           7,431               No Data         No Data         No Data         No Data
 Department of Energy – Bonneville
 Power Administration                       2,954,393        147,720              3,028,269         163,829        3,139,301        168,267
 Export-Import Bank                               627             31                    225              12          No Data        No Data
 Federal Deposit Insurance Corporation      2,605,927        130,296              2,148,506         116,234        2,318,625        124,278
 Federal Housing Finance Board                No Data        No Data                No Data         No Data              452             24
 Federal Reserve                              No Data        No Data                No Data         No Data          389,024         20,852
 Justice – Federal Prison Industries          608,374         30,419                713,992          38,627          783,117         41,975
 Justice – Federal Prison System,
 Revolving Fund                                63,291           3,165                49,117           2,657           77,887           4,175
 National Credit Union Administration         145,716           7,286               254,901          13,790          207,015          11,096
 Office of Thrift Supervision                 298,565          14,928               353,400          19,119          310,759          16,657
 Overseas Private Investment
 Corporation                                  No Data        No Data                No Data         No Data             121               6
 Pension Benefit Guaranty Corporation             859             43                     77               4         No Data         No Data
 Resolution Trust Corporation                 342,322         17,116                327,860          17,737         313,752          16,817
 Saint Lawrence Seaway Development
 Corporation                                  No Data        No Data                175,761           9,509          294,764         15,799
 Small Business Administration              2,320,491        116,025              2,481,751         134,263        2,110,446        113,120
 Tennessee Valley Authority (TVA) –
                      39
 Appropriated Portion                       8,213,235         410,662             8,213,775         444,365       7,998,060          428,696
 TVA – Nonappropriated Portion             54,006,055       2,700,303            52,336,108       2,831,383      50,140,260        2,687,518
 Department of Veterans’ Affairs –
 Canteen Service                            1,026,119          51,306             1,124,303          60,825        1,224,916          65,656
  TOTAL (Excluding the
 Postal Service)                           76,107,652      3,805,384             74,475,394       4,029,117      71,749,955       3,845,797
  TOTAL Postal Service                    759,784,476     45,271,616            822,697,801      44,507,951     830,088,798      44,492,760
  TOTAL ALL                              $835,892,128    $49,077,000           $897,173,195     $48,537,068    $901,838,753     $48,338,557
Source: OWCP




35
   This column is 5 percent of the medical and wage compensation amount column.
36
   No data refers to those time periods when the agency was not listed on OWCP chargeback reports.
37
   National Institute of Standards and Technology.
38
   National Technical Information Service.
39
   According to a DOL representative, TVA shows appropriated and nonappropriated fees because both entities earn a profit.

                                                                         26
Postal Service Participation in the Department of Labor’s                                                      HM-OT-06-001
 Office of Workers’ Compensation Programs


                     APPENDIX G. PROFILE OF THE POSTAL SERVICE AND
                             BENCHMARKED ORGANIZATIONS
                         Company                                       Type of Workers’ Compensation Program

  1. Postal Service                                           FECA40

  2. Company A                                                Self-insured41

  3. Company B                                                Self-insured

  4. Company C                                                Self-Insured

  5. Company D                                                Combination of self-insurance and private insurance
                                                              Self-insured in Ohio, Washington, and Nevada; high-
  6. Company E                                                deductible program in all other states

             Nonfederal Government Agency                              Type of Workers’ Compensation Program

  7. Company F                                                Self-insured

  8. Company G                                                Self-insured

  9. Company H                                                Private insurance

  10. Company I                                               Self-insured

  11. Company J                                               State monopolistic fund

  12. Company K                                               Self-insured




       40
          FECA is administered by the OWCP which manages the Postal Service workers’ compensation program. The
       OWCP calculates and receives program chargeback costs and administrative fees from the Postal Service.
       41
          Self-insured: Large corporations prefer to assume liability for workers’ compensation and avoid administrative costs
       associated with insurance policies. Self-insurance is permitted in most U.S. states.

                                                                 27
Postal Service Participation in the Department of Labor’s                             HM-OT-06-001
 Office of Workers’ Compensation Programs

               APPENDIX H. ANALYSIS OF PRIOR REPORTS ADDRESSING
                 POSTAL SERVICE PARTICIPATION IN THE DOL’S OWCP

       Three significant reports addressed the positive and negative issues concerning the
       Postal Service’s participation in OWCP, compared to having its own program. These
       reports are:

               •   Proposal to Move Postal Workers’ Compensation Coverage to a Postal
                   Service Workers’ Compensation Act, Postal Service’s internal draft proposal,
                   October 2003.

               •   USPS Workers’ Compensation – Options Available to Assist the U. S. Postal
                   Service for Improving Delivery of Workers’ Compensation Benefits, Reducing
                   Costs, and Strengthening Accountability, Deloitte & Touche, June 2003.

               •   U. S. Postal Service, Analysis of Potential Savings: FECA vs. State Act
                   Coverage of Workers’ Compensation, Ernst & Young LLP, November 1995.

       The reports discussed the initiatives the Postal Service should undertake to develop a
       workers’ compensation program separate from OWCP that would be positive and
       cost-reducing. Below are synopses of each of the three reports reviewed.

       Postal Service’s Internal Draft Proposal

       The Postal Service’s internal draft proposal identified the positive and negative issues of
       the Postal Service having its own program. The proposal discussed moving the Postal
       Service’s workers’ compensation coverage from FECA to a new program called the
       USPS Act.

       The Postal Service does not receive appropriations for workers’ compensation as other
       federal agencies do. The proposed program would retain DOL’s OWCP oversight but
       not management. A number of the provisions in the proposed legislation mirror
       provisions of the Longshore and Harbor Workers’ Compensation Act, but are
       modifications specific to the Postal Service. The following are some cost-saving
       proposals of the USPS Act:

           •   No Continuation of Pay (COP) unless the claim exceeds 14 days. If the claim is
               less than 14 days, the employee will receive workers’ compensation after a 3-day
               waiting period, and no COP.

           •   Limit maximum compensation to 66⅔ percent of the injured employee’s salary for
               all employees, regardless of dependents (FECA currently allows up to 75
               percent).

           •   Offer reasonable buyouts.


                                                       28
Postal Service Participation in the Department of Labor’s                             HM-OT-06-001
 Office of Workers’ Compensation Programs

           •   Schedule awards for permanent disabilities at 40 percent less than FECA
               payments.

           •   Impose mandatory retirement.

           •   Eliminate the OWCP administrative fee.

           •   Let Postal Service staff of 100 manage contracts and act as liaison for contractor
               (current staff is 476).

           •   Allow the Postal Service to choose the physician for an injured employee
       .
           •   Direct contact with treating physicians to enhance case management of injuries.

           •   Allow the agency to contract out program administration to a third-party
               administrator (TPA) or insurance companies.

           •   Reduce staff through outsourcing.

           •   Allow a TPA to manage the program for substantial savings.

       The negative issues address union resistance to injury and disability compensation
       benefits and the fact that implementing the proposal would be contingent on
       congressional sponsorship and legislative changes.

       Deloitte & Touche Study

       The Deloitte & Touche study, requested by the President’s Commission on the U. S.
       Postal Service, provides potential solutions to improve the workers’ compensation
       program. The study identified three areas affecting delivery of workers’ compensation
       benefits and rising costs that warrant improvement: cost per claim, benefit structures
       compared to private industry, and standards of performance (accountability) in the
       claims adjudication process.

       Deloitte & Touche provided two options to the President’s Commission. The first option
       suggests that the Postal Service model its program after the private sector by obtaining
       a TPA to replace OWCP. This option would provide better control over claims
       administration, give tighter accountability over benefits delivery systems and cost
       containment, and potentially reduce administrative costs. This option would also require
       legislative change for the Postal Service to opt out of OWCP.

       The second option would provide for collaboration between the Postal Service and
       OWCP and a mandate to implement best practices within a reasonable timeframe.
       Independent consultants would lead and facilitate the process to control turf issues,
       provide cost-benefit analyses of alternatives, report impartially on progress, and ensure
       that specific timelines are developed for completion of required actions.

                                                       29
Postal Service Participation in the Department of Labor’s                                                 HM-OT-06-001
 Office of Workers’ Compensation Programs



       Deloitte & Touche also recommended that the Commission review the quality of the
       Postal Service’s workers’ compensation program and analyze the best practice gap in
       detail. This study was to be accomplished by independent and objective professionals
       who help resolve workers’ compensation issues.42

       Ernst & Young LLP Report

       The Ernst & Young LLP report (requested by the Postal Service) analyzed potential
       savings with respect to FECA versus state coverage of workers’ compensation. They
       determined that significant potential savings could be derived from the Postal Service
       switching to state coverage.

       The report showed, however, that these savings would depend on several variables,
       such as the Postal Service treating return-to-work salaries as part of overall costs. The
       report also estimated that for every $1,000 paid in return-to-work salary, $3,093, is
       saved in benefits, for an efficiency rating of 3.093. In addition, claimants may be
       unwilling to accept limited-duty positions when there is no threat of losing benefits,
       unless state compensation does not escalate as annual salaries would.

       The report also addressed legislative changes and FECA reform when retirement is
       mandated for claimants reaching retirement age. The report also suggested minimizing
       other associated costs such as loss adjustment expenses, state premium taxes, second
       injury fund assessments, and the potential need to assist in bailing out bankrupt state
       workers’ compensation systems.

       All three reports encouraged further study of the quality and cost-effectiveness of
       services the Postal Service receives, in comparison to other federal and nonfederal
       government entities and the private sector.




       42
        The Deputy Assistant Secretary for Government Financial Policy, DOT, told the OIG he did not believe a study had
       been conducted when the Commission was disbanded in July 2003.

                                                              30
Postal Service Participation in the Department of Labor’s                                                          HM-OT-06-001
 Office of Workers’ Compensation Programs


    APPENDIX I. ANNUAL COMPENSATION FOR INJURED EMPLOYEES

                              Benchmarking Question: Please provide wage compensation amounts (for a five-year period
                              from January 1, 1999, through December 31, 2003) that an injured employee would receive his or
                              her regular salary was $30,000 in 1999. Please do not include health benefits deductions, life
     ORGANIZATION             insurance premiums, etc.
   Postal Service             Year        1999           2000            2001            2002            2003           TOTAL
   Without Dependent                      $20,317        $20,866         $21,575         $21,855         $22,380         $106,993
   With Dependent                          22,860         23,477          24,275          24,591          25,181          120,384
   Company A                  Year        1999           2000            2001            2002            2003           TOTAL
   Without Dependent                       17,851         17,908          17,908          17,908          17,908           89,483
   With Dependent                          19,543         19,606          19,606          19,606          19,606           97,967
   Company B                  Year        1999           2000            2001            2002            2003           TOTAL
   Without Dependent                       20,000         20,000          20,000          20,000          20,000          100,000
   With Dependent                          20,000         20,000          20,000          20,000          20,000          100,000
   Company C                  Year        1999           2000            2001            2002            2003           TOTAL
   Without Dependent                       20,000         20,000          20,000          20,000          20,000          100,000
   With Dependent                          20,000         20,000          20,000          20,000          20,000          100,000
   Company D                  Year        1999           2000            2001            2002            2003           TOTAL
   Without Dependent                       20,800         20,800          20,800          20,800          20,800          104,000
   With Dependent                          20,800         20,800          20,800          20,800          20,800          104,000
   Company E                  Year        1999           2000            2001            2002            2003           TOTAL
   Without Dependent                       N/AV43          N/AV            N/AV            N/AV            N/AV             N/AV
   With Dependent                           N/AV           N/AV            N/AV            N/AV            N/AV             N/AV
   Company F                  Year        1999           2000            2001            2002            2003           TOTAL
   Without Dependent                       21,000         21,000          20,758          19,200          19,200          101,158
   With Dependent                          21,000         21,000          20,758          19,200          19,200          101,158
   Company G                  Year        1999           2000            2001            2002            2003           TOTAL
   Without Dependent                      2/3 of the      2/3 of the      2/3 of the      2/3 of the      2/3 of the
                                           average         average         average         average         average
                                                                                                                              N/A44
                                       weekly wage     weekly wage     weekly wage     weekly wage     weekly wage
   With Dependent                           Same           Same            Same            Same            Same               N/A
   Company H                  Year        1999           2000            2001            2002            2003           TOTAL
   Without Dependent                       20,000         20,000          20,000          20,000          20,000          100,000
   With Dependent                          20,000         20,000          20,000          20,000          20,000          100,000
   Company I                  Year        1999           2000            2001            2002            2003           TOTAL
   Without Dependent                       20,000         20,000          20,000          20,000          20,400          100,400
   With Dependent                          20,000         20,000          20,000          20,000          20,400          100,400
   Company J                  Year        1999           2000            2001            2002            2003           TOTAL
   Without Dependent                       16,260         16,260          16,260          16,260          16,260           81,300
   With Dependent                          16,260         16,260          16,260          16,260          16,260           81,300
   Company K                  Year        1999           2000            2001            2002            2003           TOTAL
   Without Dependent                                      19,980          19,980          19,980          19,980           99,900
                                           19,980        + COLA          + COLA          + COLA          + COLA           + COLA
   With Dependent                                         22,500          22,500          22,500          22,500          112,500
                                           22,500        + COLA          + COLA          + COLA          + COLA           + COLA
  Source: Responses to Benchmarking Questionnaire



       43
          N/AV is defined as the data were not available and/or could not be provided by the organization for the requested
       categories.
       44
          N/A is defined as the organization indicated not applicable.

                                                                  31
 Postal Service Participation in the Department of Labor’s                                              HM-OT-05-001
  Office of Workers’ Compensation Programs

         APPENDIX J. SIMILARITIES (HIGHLIGHTED) AND DIFFERENCES
         BETWEEN THE POSTAL SERVICE AND OTHER BENCHMARKED
                             ORGANIZATIONS
                                                                             Nonfederal Government              Postal
           Questionnaire Item                   Private Companies                  Agencies                     Service

 Type of program – self-Insured             4 of 5 – Yes                    4 of 6 – Yes                         FECA
 Has third party administrator (TPA)        5 of 5 - Yes                    2 of 6 – Yes                          No
 Number of benefit weeks
 limitation/compensation                    4 of 5 – No                     2 of 6 – No                            No
 Number of benefit weeks
 limitation/medical                         4 of 5 – No                     6 of 6 – No                            No
 Limit on compensation dollar amount        5 of 5 – Yes                    6 of 6 – Yes                           No
                                            Depends on statutory
 Organization selects physician             regulations                     4 of 6 – Yes                           No
                                            5 of 5 – Yes,
                                            (4 – salaried employees
                                            only; 1 – Yes, all
 Program similar to COP                     employees)                      2 of 6 – Yes                           Yes
 Waiting period for temporary
 compensation                               4 of 5 – No                     1 of 6 – Yes                           No
 Requirement to retire when eligible        4 of 5 – No45                   6 of 6 – No                            No
 Advantage to stay on workers’
 compensation                               2 of 5 – Yes                    5 of 6 – Yes                           Yes
 Permanently disabled employee on
 workers’ compensation indefinitely         3 of 5 – Yes                    6 of 6 – Yes                           Yes
 Buyouts offered                            5 of 5 – Yes                    3 of 6 – Yes                           No
                                                                            2-Percentage
                                                                            1-Standard
 Loss of body part – pay46              5 of 5 – Depends on state           3-None                             Percentage
 Legal actions possible                 5 of 5 – Yes47                      2 of 6 – Yes48                         No
 Unionized                              4 of 5 – Yes                        3 of 6 – Yes                          Yes
 Union buy-in to assist organization in
                                                                                                                          49
 controlling workers’ compensation      3 of 4 – Yes                        1 of 3 – Yes                      Sometimes
 costs
Source: Responses to Benchmarking Questionnaire




    45
      This question was not applicable to one company that indicated they do not have a retirement program.
    46
      Office of Workers’ Compensation Programs’ Schedule Award Payments to Postal Service Employees in
    the Pacific Area – Report II (Report Number HM-AR-05-11, dated September 29, 2005). We used a statistical
    sample to project that the Postal Service was overcharged about $291,200 and undercharged about $251,200 for
    schedule awards in the Pacific Area, in CBY 2004. Although the amounts were not significant when compared to the
    total schedule award payments made, they highlighted the fact that some employees did not receive benefits they
    were entitled to, while others received more.
    47
      These private organizations responded “Yes” when asked if legal action was possible, but stated that this was the
    answer in cases of gross negligence only.
    48
      These agencies responded “Yes” when asked if legal action was possible, but stated only in cases when culpable
    negligence is proven or employer failed to provide workers’ compensation coverage.
    49
      Postal Service officials indicated that unions sometimes buy in to assist in controlling workers’ compensation costs;
    buy-in depends on Postal Service Headquarters program initiatives.

                                                              32
             Postal Service Participation in the Department of Labor’s                                     HM-OT-06-001
              Office of Workers’ Compensation Programs

     APPENDIX K. TOTAL WORKERS’ COMPENSATION PROGRAM COSTS FOR
         THE POSTAL SERVICE AND BENCHMARKED ORGANIZATIONS
                                                                                                                             50
                                                                                                                        2003
                                                                                                             Average Program Expense per
                                                                                                                                   51
                                                                                                                  Case or Employee

                                                                                                             (2003 Total Expense Divided by
                                                                                                                    Number of Cases
 Private Organization            Expense                   2001              2002             2003                   or Employees)
Postal Service                      Medical claims       $720,517,633      $304,601,310    $326,554,873
                                                            Included in
                             Compensation/income               Medical      480,597,679     520,321,185
                         Scheduled injuries/loss of         Included in      Included in     Included in
                                          body parts           Medical     Compensation    Compensation
                                      Administration       37,117,095        45,271,616      44,507,951
                                                                     52
                         TOTAL                          $757,634,728       $830,470,605    $891,384,009                              $6,453
Company A                             Medical claims      $27,000,000       $26,000,000     $29,000,000
                             Compensation/Income           41,000,000        32,000,000      33,000,000
                         Scheduled injuries/loss of         Included in      Included in     Included in
                                          body parts     compensation      compensation    compensation
                                      Administration       20,000,000        20,000,000      23,000,000
                         TOTAL                            $88,000,000       $78,000,000     $85,000,000                              $3,765
Company B                             Medical claims      $14,821,156       $17,671,795     $26,433,623
                             Compensation/income             8,707,389       10,338,148      13,473,889
                         Scheduled injuries/loss of
                                          body parts         5,803,960         5,949,328       8,014,262
                                      Administration         2,500,000         3,500,000       5,000,000
                        Other (legal, investigations,
                           case management, audit
                                                fees)       1,789,842         2,942,288       6,540,085
                         TOTAL                            $33,622,347       $40,401,559     $59,461,859                             $13,440
Company C                             Medical claims      $10,595,000        $8,515,000      $6,240,000
                             Compensation/income            5,705,000         4,585,000       3,360,000
                         Scheduled injuries/loss of        Included in       Included in     Included in
                                          body parts     compensation      compensation    compensation
                                      Administration        5,200,000         5,200,000       5,200,000
                         TOTAL                            $21,500,000       $18,300,000     $14,800,000                              $2,362
Company D                             Medical claims      $24,700,000       $24,700,000     $25,500,000
                             Compensation/income          $42,600,000       $31,700,000     $33,100,000
                         Scheduled injuries/loss of        Included in       Included in     Included in
                                          body parts     compensation      compensation    compensation
                                      Administration        5,100,000         5,400,000       5,400,000
                         TOTAL                            $72,400,000       $61,800,000     $64,000,000                              $9,910
Company E                             Medical claims      $17,012,916       $18,730,646     $18,625,239
                             Compensation/income           12,026,344        10,600,842       9,863,724
                         Scheduled injuries/loss of
                                          body parts        3,365,431         4,714,339        6,006,913
                                      Administration        5,237,605         5,150,410        6,345,512
                         Other (allocated expense)          2,405,365         2,580,114        2,816,313
                         TOTAL                            $40,047,661       $41,776,351      $43,657,701                             $6,080
    Source: Responses to Benchmarking Questionnaire




    50
       We accepted information from benchmarked organizations for a 12-month period for 2003. Some organizations provided
    data for CY 2003 and some provided information for FY 2003.
    51
       The Postal Service’s, Companies E’s and G’s average expense was determined by dividing the total expense for 2003 by
    the number of cases. For the Postal Service and these companies, some employees may have more than one “case.” The
    average expense for Companies A, B, C, D, F, H, I, and J was determined by dividing the total expense by the number of
    employees. Company K did not provide information regarding its number of employees or cases.
    52
       The amounts for the Postal Service include the workers’ compensation and medical costs for the Post Office Department.

                                                                      33
    Postal Service Participation in the Department of Labor’s                                       HM-OT-06-001
     Office of Workers’ Compensation Programs

APPENDIX K. TOTAL WORKERS’ COMPENSATION PROGRAM COSTS FOR THE
   POSTAL SERVICE AND BENCHMARKED ORGANIZATIONS (CONTINUED)
                                                                                                                50
                                                                                                           2003
                                                                                                 Average Program Expense
                                                                                                                   51
                                                                                                      per Employee

                                                                                                 (2003 Total Expense Divided
    Nonfederal                                                                                       by Number of Cases
   Organization          Expense                 2001               2002            2003                or Employees)
  Company F              Medical claims        $40,408,926      $44,795,673       $37,563,474
                   Compensation/income          17,437,742       18,686,923        17,280,908
                  Scheduled injuries/loss        9,529,674        9,945,866         9,507,029
                           of body parts
                         Administration          4,530,266        4,734,796         4,515,617
                   TOTAL                       $71,906,608      $78,163,258       $68,867,028                          $5,487
  Company G                 Medical claims     $43,780,293      $49,167,154       $50,149,138
                   Compensation/income          36,632,490       40,317,066        38,349,341
                                                         53
                  Scheduled injuries/loss            N/A                N/A
                             of body parts                                                N/A
                            Administration       8,934,753        8,850,087         9,833,164
                   TOTAL                       $89,347,536      $98,334,307       $98,331,643                          $6,773
  Company H                 Medical claims      $3,617,552       $2,996,569        $2,201,854
                   Compensation/Income           3,236,899        2,229,297           815,453
                                Scheduled       Included in      Included in       Included in
                    injuries/Loss of body     compensation     compensation      compensation
                                      parts
                            Administration         850,000             850,000      1,150,000
                   TOTAL                        $7,704,451          $6,075,866     $4,167,307                          $3,698
  Company I                 Medical claims      $5,785,149          $6,557,075     $7,261,858
                   Compensation/income           6,645,482           6,477,723      6,309,611
                  Scheduled injuries/loss          851,089             671,577        657,015
                             of body parts
                            Administration       2,731,295           2,735,971      2,936,763
                           Other (certified      1,107,378           1,187,015      1,145,848
                      managed care plan)
                    Special assessments
                       (to fund uninsured        1,284,252
                               employees)                            1,110,971      2,221,019
                              Reinsurance          242,048             338,101        318,800
                  Employee attorney fees           428,357             480,132        527,350
                                Vocational       1,194,332
                             rehabilitation                         881,068           934,692
                   TOTAL                       $20,269,382      $20,439,633       $22,312,956                          $5,689
                                                         54
  Company J                 Medical claims          N/AV              N/AV              N/AV
                   Compensation/income               N/AV             N/AV              N/AV
                  Scheduled injuries/loss            N/AV             N/AV              N/AV
                             of body parts
                            Administration              N/AV           N/AV              N/AV
                   TOTAL                                N/AV           N/AV              N/AV                        Unknown
  Company K                 Medical claims              N/AV     $4,133,200        $4,970,352
                   Compensation/income                  N/AV     18,795,252        20,235,884
                  Scheduled injuries/loss                        Included in       Included in
                             of body parts              N/AV   compensation      compensation
                            Administration              N/AV      8,321,149         5,374,650
                   TOTAL                                N/AV    $31,249,601       $30,580,886                         $16,952
  Source: Responses to Benchmarking Questionnaire



   53
    N/A is defined as the organization indicated not applicable.
   54
    N/AV is defined as data were not available and/or could not be provided by the organization for the requested
   categories.

                                                               34
 Postal Service Participation in the Department of Labor’s                                     HM-OT-06-001
  Office of Workers’ Compensation Programs

APPENDIX L. TOTAL NUMBERS OF ACCIDENTS AND INJURIES FOR
  THE POSTAL SERVICE AND BENCHMARKED ORGANIZATIONS

      Organization                  CY                                 2001       2002       2003          TOTAL
     Postal Service
                 Accidents                                          145,855    126,423    120,536         392,814
                 Injuries                                            70,830     61,587     54,060         186,477
                                                                          55
                 Total number of employees involved                  N/AV        N/AV       N/AV            N/AV
  Company A      Accidents/Injuries                                   N/AV       N/AV       N/AV            N/AV
                 Total number of employees involved                   N/AV       N/AV       N/AV            N/AV
                                                                          56
  Company B      Accidents                                            N/A          N/A        N/A             N/A
                 Injuries                                             4,226      5,597      4,424          14,247
                 Total number of employees involved                   N/AV       N/AV       N/AV            N/AV
  Company C      Accidents                                              N/A        N/A        N/A             N/A
                 Injuries                                             7,363      6,796      6,266          20,425
                 Total number of employees involved                   7,363      6,796      6,266          20,425
  Company D      Accidents                                              N/A        N/A        N/A             N/A
                 Injuries                                             7,271      6,227      6,458          19,956
                 Total number of employees involved                   7,271      6,227      6,458          19,956
  Company E      Accidents                                            7,663      7,389      7,181          22,233
                 Injuries                                             5,553      4,636      4,428          14,617
                 Total number of employees involved                   N/AV       N/AV       N/AV            N/AV
  Company F      Accidents                                            N/AV       N/AV       N/AV            N/AV
                 Injuries                                             8,011      8,293      7,105          23,409
                 Total number of employees involved                   7,462      7,626      6,616          21,704
  Company G      Accidents/Injuries                                  15,076     14,859     13,620          43,555
                 Total number of employees involved                   N/AV       N/AV       N/AV            N/AV
  Company H      Accidents/injuries                                   1,414      1,269      1,181           3,864
                 Total number of employees involved                   N/AV       N/AV       N/AV            N/AV
  Company I      Accidents                                            3,315      3,118      2,636           9,069
                 Injuries                                              2256       2148       1840            6244
                 Total number of employees involved                   N/AV       N/AV       N/AV            N/AV
  Company J      Accidents/Injuries                                   N/AV       N/AV       N/AV            N/AV
                 Total number of employees involved                   N/AV       N/AV       N/AV            N/AV
  Company K      Accidents                                            N/AV       N/AV       N/AV            N/AV
                 Injuries                                             N/AV       2351        1804            4155
                 Total number of employees involved                   N/AV       2351        1804            4155
 Source: Responses to Benchmarking Questionnaire




55
  N/AV is defined as data were not available and/or could not be provided by the organization for the requested
categories.
56
  N/A is defined as the organization indicated not applicable.

                                                         35
Postal Service Participation in the Department of Labor’s   HM-OT-06-001
 Office of Workers’ Compensation Programs

                 APPENDIX M. MANAGEMENT’S COMMENTS




                                               36
Postal Service Participation in the Department of Labor’s   HM-OT-06-001
 Office of Workers’ Compensation Programs




                                               37
